 DEPARTMENT OF HOMELAND SECURITY
      Office of Inspector General



      Technical Security Evaluation of 

      U.S. Immigration and Customs 

       Enforcement Activities at the 

      Chet Holifield Federal Building 

                (Redacted) 





        Notice: The Department of Homeland Security, Office of the Inspector
        General, has redacted this report for public release. A review under the
        Freedom of Information Act (5 U.S.C. 552) will be conducted upon request.




OIG-08-59                                                        May 2008
                                                         Office of Inspector General
                                                         U.S. Department of Homeland Security
                                                         Washington, DC 20528




                                     May 28, 2008

                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the implementation of technical and information security policies
and procedures at U.S. Immigration and Customs Enforcement locations at the Chet
Holifield Federal Building, Laguna Niguel, California. It is based on interviews with
employees and officials of relevant agencies and institutions, direct observations, and
reviews of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. It is
our hope that this report will result in more effective, efficient, and economical
operations. We express our appreciation to all of those who contributed to the
preparation of this report.




                                            Richard L. Skinner 

                                            Inspector General 





.
Table of Contents/Abbreviations 




Executive Summary ............................................................................................................ 1 


Background ......................................................................................................................... 2 


Results of Review ............................................................................................................... 4



      Systems Did Not Comply Fully With DHS Operational Control Requirements ........ 4 

      Recommendations ....................................................................................................... 6 

      Management Comments and OIG Analysis................................................................ 7


      Systems Did Not Comply Fully With DHS Technical Control Requirements ........... 7 

      Recommendations ....................................................................................................... 9 

      Management Comments and OIG Analysis.............................................................. 10


      Systems Did Not Comply Fully With DHS Management Control Requirements .... 10 

      Recommendations ..................................................................................................... 13 

      Management Comments and OIG Analysis.............................................................. 13


Appendices

     Appendix A:             Purpose, Scope, and Methodology .....................................................14 

     Appendix B:             Management Comments to Draft Report ...........................................16 

     Appendix C:             ICE Novell Servers with Known Vulnerabilities ...............................20 

     Appendix D:             ICE Windows Servers with Known Vulnerabilities ..........................21 

     Appendix E:             Certification and Accreditation Status ..............................................23 

     Appendix F:             Status of Privacy Compliance Activities for ICE Systems ................24 

     Appendix G:             Major Contributors to This Report.....................................................25 

     Appendix H:             Report Distribution ............................................................................26 





.
Table of Contents/Abbreviations 



Abbreviations
    ACL                   Administrative Center Laguna
    ATO                   Authorization to Operate
    CHFB                  Chet Holifield Federal Building
    CIO                   Chief Information Officer
    CISO                  Chief Information Security Officer
    CSIRC                 Computer Security Incident Response Center
    DAA                   Designated Accrediting Authority
    DHS                   Department of Homeland Security
    DHS Directive 4300A   DHS Sensitive Systems Policy Directive 4300A
    DHS 4300A Handbook    DHS 4300A Sensitive Systems Handbook
    FISMA                 Federal Information Security Management Act
    HVAC                  Heating, Ventilation, and Air Conditioning
    ICE                   Immigration and Customs Enforcement
    IT                    Information Technology
    OIG                   Office of Inspector General
    OIT                   Office of Information Technology
    TA-FISMA              Trusted Agent FISMA
    USCIS                 U.S. Citizenship and Immigration Services




.
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                      We initiated a program to determine the extent to which critical
                      Department of Homeland Security sites comply with the
                      department’s technical and information security policies and
                      procedures. Based on our internal analysis, we selected the Chet
                      Holifield Federal Building located in Laguna Niguel, California,
                      where U.S. Immigration and Customs Enforcement operates the
                      West Area Information Technology Field Operations office.

                      Our evaluation focused on how Immigration and Customs
                      Enforcement has implemented computer security operational,
                      technical, and management controls for its information technology
                      resources at this site. We performed onsite inspections of the areas
                      where these resources were located, interviewed department staff,
                      and conducted technical tests of internal controls, e.g., scans for
                      wireless networks. We also reviewed applicable department
                      policies, procedures, and other appropriate documentation.

                      The information technology security controls implemented at this
                      site have deficiencies that, if exploited, could result in the loss of
                      confidentiality, integrity, and availability of their information
                      technology systems. Specifically, Immigration and Customs
                      Enforcement needs to improve its physical security,
                      environmental, and business continuity controls for its computer
                      room and telecommunications closets. Immigration and Customs
                      Enforcement also could improve its technical controls by installing
                      the latest patches, disabling unnecessary ports, and by improving
                      network configuration. Additionally, management controls could
                      be improved by implementing procedures to identify and
                      disconnect unused telecommunications lines and by completing all
                      required certification and accreditation activities. Management
                      concurred with all our 10 recommendations and is taking action to
                      resolve them.




      Technical Security Evaluation of ICE Activities at the Chet Holifield Federal Building
                                          (Redacted)

                                             Page 1
Background
                     We designed our Technical Security Evaluation Program to
                     provide senior Department of Homeland Security (DHS) officials
                     with timely information on whether they had adequately
                     implemented DHS information technology (IT) security policies at
                     critical sites. Our program is based on DHS Sensitive Systems
                     Policy Directive 4300A (DHS Directive 4300A), which applies to
                     all DHS components and provides direction to managers and
                     senior executives regarding the management and protection of
                     sensitive systems. DHS Directive 4300A also outlines policies
                     relating to the operational, technical, and management controls that
                     are necessary for ensuring confidentiality, integrity, availability,
                     authenticity, and nonrepudiation within the DHS IT infrastructure
                     and operations. A companion document—the DHS 4300A
                     Sensitive Systems Handbook (DHS 4300A Handbook)—provides
                     detailed guidance on the implementation of these policies.

                     DHS IT security policies are organized under management,
                     operational, and technical controls. According to DHS Directive
                     4300A, these controls are defined as follows:

                              •	 Operational Controls – Focus on mechanisms
                                 primarily implemented and executed by people. These
                                 controls are designed to improve the security of a
                                 particular system, or group of systems. These controls
                                 require technical or specialized expertise and often rely
                                 on management and technical controls.

                                                          **********

                              •	 Technical Controls – Focus on security controls
                                 executed by IT systems. These controls provide
                                 automated protection from unauthorized access or
                                 misuse. They facilitate detection of security violations,
                                 and support security requirements for applications and
                                 data.

                                                          **********

                              •	 Management Controls – Focus on managing both the
                                 IT security system and system risk. These controls
                                 consist of risk mitigation techniques and concerns
                                 normally addressed by management.


     Technical Security Evaluation of ICE Activities at the Chet Holifield Federal Building
                                         (Redacted)

                                            Page 2
                Based on our internal analysis, we selected the Chet Holifield
                Federal Building (CHFB) located in Laguna Niguel, California,
                where the U.S. Immigration and Customs Enforcement’s (ICE)
                West Area 2 Field Operations office is located. The
                U.S. Citizenship and Immigration Services (USCIS) and
                U.S. Customs and Border Protection also operate in this facility,
                and their activities are addressed in separate evaluation reports.




Technical Security Evaluation of ICE Activities at the Chet Holifield Federal Building
                                    (Redacted)

                                       Page 3
Results of Review

     Systems Did Not Comply Fully With DHS Operational Control
     Requirements
                      Some operational controls that ICE implemented at CHFB did not
                      conform to DHS policies; these included physical security,
                      environmental controls, and business continuity. Together, these
                      deficiencies could place at risk the confidentiality, integrity, and
                      availability of the data stored, transmitted, and processed by ICE at
                      CHFB.

                      Physical Security Controls

                      While ICE has implemented some physical security access
                      controls, including the use of badges, card readers, and locked
                      entrances, physical security controls could be strengthened at their
                      CHFB locations. Specifically, ICE needs to limit access to IT
                      assets in the ICE/USCIS shared server room at CHFB. Examples
                      of situations that need attention follow:




                      Figure 1 illustrates how ICE IT assets are located directly behind
                      the printout table and accessible to staff who come to pick up
                      printouts.




                                        Figure 1: Computer Room Printout Desk



      Technical Security Evaluation of ICE Activities at the Chet Holifield Federal Building
                                          (Redacted)

                                             Page 4
                The examples mentioned above increase the risk of unauthorized
                access to potentially sensitive information and accidental loss of
                power or damage to IT resources at CHFB.

                According to the DHS 4300A Handbook:

                         To protect sensitive information and limit the damage that
                         can result from accident, error, or unauthorized use, the
                         principle of least privilege must be applied. The principle
                         of least privilege requires that users be granted the most
                         restrictive set of privileges (or lowest clearance) needed for
                         performance of authorized tasks—i.e., users should be able
                         to access only the system resources needed to fulfill their
                         job responsibilities.

                Environmental Controls

                ICE should maintain its environmental operational controls at
                prescribed levels by adjusting the heating, ventilation, and air
                conditioning (HVAC) temperature controls in the
                telecommunications rooms, in accordance with agency guidance.

                ICE’s telecommunications equipment was also at risk of failure
                because of the absence of temperature or humidity sensors in the
                telecommunications closets. Specifically, eleven ICE
                telecommunications rooms had temperatures that exceeded 70
                degrees. We noted that only two of these rooms had any
                temperature or humidity sensors.

                According to the DHS 4300A Handbook:

                         Temperatures in computer storage areas should be held
                         between 60 and 70 degrees Fahrenheit.




Technical Security Evaluation of ICE Activities at the Chet Holifield Federal Building
                                    (Redacted)

                                       Page 5
                Business Continuity

                ICE’s business continuity capability also needs to be improved at
                CHFB. We identified several issues involving ICE IT resources in
                room 2102, including




                    •	 The ICE Public Address system rack could be better
                       secured by bracing it to prevent damage during an
                       earthquake.
                    •	 One of the power distribution units is not connected to the
                       emergency power-off switch.

                Additionally, the need to connect all power distribution units to the
                emergency cut-off switch is related to ICE’s use of a water-based,
                fire-suppression system. If all power distribution units are not
                connected to the emergency shut-off switch, the IT resources that
                are still receiving power when the sprinklers are activated are at
                increased risk of short circuit during a fire. Further, ICE cannot
                ensure that its IT resources will be available when needed without
                backup generators.

                According to the DHS 4300A Handbook:

                         DHS must have the capability to ensure continuity of
                         essential functions under all circumstances.

Recommendations:
                We recommend that the ICE Chief Information Officer (CIO) take
                the following actions for ICE activities at CHFB

                Recommendation #1: Implement stronger physical security and
                environmental controls to protect ICE’s IT assets from possible
                loss, theft, destruction, accidental damage, hazardous conditions,
                fire, malicious actions, and natural disasters.

                Recommendation #2: Implement business continuity of
                operations capability for ICE facilities at CHFB




Technical Security Evaluation of ICE Activities at the Chet Holifield Federal Building
                                    (Redacted)

                                       Page 6
         Management Comments and OIG Analysis
                           We obtained written comments on a draft of this report from the 

                           ICE Assistant Secretary. We have included a copy of the 

                           comments in their entirety at Appendix B. 


                           In the comments, ICE concurred with these recommendations. We

                           agree that the recommendations are resolved and that planned 

                           actions are appropriate to address the issues. Recommendations 1 

                           and 2 will be considered resolved but open pending completion 

                           and verification of all planned actions. 


         Systems Did Not Comply Fully With DHS Technical Control
         Requirements

                           ICE’s implementation of technical controls at CHFB did not
                           conform to DHS policies involving configuration management of
                           operating systems and routers. These deficiencies increase the risk
                           that ICE IT systems used at CHFB are vulnerable to internal
                           attacks.

                           Operating System Configuration Management

                           Unsupported operating systems were running on ICE’s servers at
                           CHFB.


                                                                               Operating
                           systems that are not supported by their vendors may not receive
                           updates, or “patches,” when a vulnerability or exploitation has
                           been identified.

                           Our technical scans also identified ICE servers with known
                           vulnerabilities. 1




1
   See Appendices C and D for inventories of ICE servers with known vulnerabilities. 

2
  “Cross-site scripting” is a technique by which a malicious web site operator may apply script, and execute 

code, in another user’s web session. 

3
  An attacker is able to gain a list of user names, shares, and other potentially sensitive information by

creating a Null session. 


          Technical Security Evaluation of ICE Activities at the Chet Holifield Federal Building
                                              (Redacted)

                                                   Page 7
                          According to DHS Directive 4300A:

                                   Components shall manage systems to reduce vulnerabilities
                                   through vulnerability testing, promptly installing patches,
                                   and eliminating or disabling unnecessary services, if
                                   possible.

                                                               **********

                                   DHS Components must have provisions for reacting
                                   quickly as these critical patches are identified and released
                                   by the DHS CSIRC.

                          Router Configuration Management Controls




                          According to DHS Directive 4300A:

                                   Telnet shall not be used to connect to any DHS computer.
                                   A connection protocol such as Secure Shell (SSH) that
                                   employs secure authentication (two factor, encrypted, key
                                   exchange, etc.) and is approved by the Component shall be
                                   used instead.




4
 According to the National Institute of Standards and Technology’s Threat Assessment of Malicious Code
and Human Threats (NISTIR 4939), “Insiders are legitimate users of a system. When they use that access
to circumvent security, that is known as an insider attack.”

          Technical Security Evaluation of ICE Activities at the Chet Holifield Federal Building
                                              (Redacted)

                                                 Page 8
                Password Management Requirements

                ICE password policies did not conform to DHS Directive 4300A or
                were not consistently applied to all ICE’s servers.

                                                                                         .

                According to the DHS 4300A Handbook:

                         Passwords are important because they are often the first
                         line of defense against hackers or insiders who may be
                         trying to obtain unauthorized access to a computer system
                         …Passwords shall be at least 8 characters in length [and]
                         shall be changed or expire in 180 days or less.

                Actions Taken

                ICE took immediate actions to address some of the technical
                control deficiencies. Specifically, ICE:

                    •	 Reconfigured some of the servers from the Windows NT
                       operating system to the Windows 2003 operating system
                    •	 Reconfigured its servers from the Novell operating system
                       to Windows 2003 operating system;

                    •




Recommendations:
                We recommend that the ICE CIO take the following actions for
                ICE activities at CHFB:

                Recommendation #3: Develop a migration plan to transition
                from unsupported operating systems to operating systems for
                which DHS has a Secure Baseline Configuration Guide.




Technical Security Evaluation of ICE Activities at the Chet Holifield Federal Building
                                    (Redacted)

                                       Page 9
                          Recommendation #4: Implement the password policy established
                          by DHS Directive 4300A.

                          Recommendation #5: Use a connection protocol that employs
                          secure authentication.

                          Recommendation #6: Eliminate or disable unnecessary services
                          from its routers.

                          Recommendation # 7: Develop a process for implementing
                          identified patches in a timely fashion.

        Management Comments and OIG Analysis
                          In the comments, ICE concurred with these recommendations. We
                          agree that the recommendations are resolved and that planned
                          actions are appropriate to address the issues. Recommendations 3,
                          4, 5, 6, and 7 will be considered resolved but open pending
                          completion and verification of all planned actions.


        Systems Did Not Comply Fully With DHS Management Control
        Requirements
                          ICE’S implementation of management controls at CHFB did not
                          conform to DHS policies. For example, ICE has not maintained
                          accurate IT systems inventories. The lack of an accurate inventory
                          of telecommunications lines places ICE at risk of unnecessary
                          expenditures. Additionally, there are deficiencies in system
                          accreditation, and incomplete privacy compliance activities. 5
                          These management control deficiencies increase the risk to ICE IT
                          investments, systems, and data from new threats and vulnerabilities
                          for which safeguards have not been implemented.

                          Management of Telecommunications Lines

                          ICE did not have an accurate inventory of its telecommunications
                          lines at CHFB. For example, ICE could save $17,412 annually by
                          disconnecting a nonoperational telecommunications line.
                          Specifically, ICE is paying a $1,451 monthly fee for a
                          telecommunications line that has not been used since the


5
  The Privacy Act of 1974 ("Privacy Act"), 5 U.S.C. § 552a, as amended, provides statutory privacy rights
to U.S. citizens and Legal Permanent Residents.

          Technical Security Evaluation of ICE Activities at the Chet Holifield Federal Building
                                              (Redacted)

                                                 Page 10
                          implementation of the DHS OneNet. 6 After determining that this
                          telecommunications line was not being used, we recommended
                          that ICE disconnect the line immediately. 7

                          We also identified 33 other active telecommunications lines whose
                          ownership is unknown. If these lines are disconnected, it may
                          result in a monthly cost savings of $160,220, or $1.9 million per
                          year. See Figure 2 below for details.

                    Range of Potential Monthly Saving For 33 Unused        $284,724
                    Li                                            $268,983
                 $300,00
                                                                                  $240,867
         Po(Si $250,00

         te ng

         ntile 
 $200,00                                               $160,220
         al Li
 $150,00
         Sane 
                                     $98,340 $107,019
                                         $73,722
         vi X $100,00
        $47,883
         ng33

                  $50,00        $1,451    $2,234     $2,980   $3,243    $4,855     $7,299    $8,151   $8,628

                         $0
                                 ICE       CBP        CIS      ICE     Average       ICE      CIS      CBP
                                                                        Cost

                                                   Monthly Charges Per Single


                          Figure 2: 	       Range of Potential Monthly Savings for 33 Unused
                                            Telecommunications Lines 8

                          According to DHS 4300A Handbook, component CIOs are to:

                                   Ensure that an accurate IT systems inventory is established
                                   and maintained.




6
  The DHS OneNet was installed at the CHFB in February 2006 and activated in June 2006.
7
  According to the DHS Infrastructure Project Office, the components are responsible for disconnecting
telecommunications lines when the DHS OneNet is installed. Additionally, the DHS Infrastructure Project
Office was unable to provide us with documentation of actual cost-savings due to the disconnection of
telecommunications lines following the DHS OneNet implementation at any site.
8
  The average monthly fee for seven telecommunications lines at CHFB is $4,855. The estimated monthly
charges for the 33 unclaimed telecommunications lines, based on the average monthly fee, is $160,215
(33 lines times an average cost of $4, 855 per line). Therefore the potential annual savings is
approximately $1.9 million ($160,220 x 12 months)

          Technical Security Evaluation of ICE Activities at the Chet Holifield Federal Building
                                              (Redacted)

                                                   Page 11
                          Without an adequate inventory of telecommunications lines, ICE
                          may not know who is accessing their IT resources. Additionally,
                          ICE may be spending money for unnecessary resources

                          System Accreditation Deficiencies

                          ICE has not maintained an accurate inventory of the IT systems in
                          use at CHFB. 9 Specifically, one of the three ICE systems (33%) in
                          use at CHFB is not currently included in DHS’ Trusted Agent
                          FISMA (TA-FISMA) reporting tool. 10 At the start of our audit
                          fieldwork, the ICE infrastructure at CHFB was included under the
                          Administrative Center Laguna (ACL) entry in TA-FISMA.
                          However, in July 2007, USCIS changed the name of the ACL
                          system to the Western Region and made the system account
                          unavailable to ICE.

                          According to DHS 4300A Handbook, component CIOs are to:

                                   Ensure that an accurate IT systems inventory is established
                                   and maintained.




                                                                                      Further,
                          the authorization to operate for the ICE infrastructure at CHFB has
                          expired.

                          According to DHS 4300A Handbook:

                                   For operational systems, the DAA makes a risk-based
                                   decision either to grant full authorization to operate or
                                   deny authorization to operate.

                          Incomplete Privacy Compliance Activities

                          ICE had not completed all privacy compliance activities for ICE
                          systems in use at CHFB. Specifically, ICE has completed all
                          required privacy compliance activities for only 1 of 3 (33%)
                          systems in use at CHFB. 11 Further, the department has not

9
  See Appendix E, Certification and Accreditation Status, for the ICE systems that are in operation at 

CHFB. 

10
   DHS uses an enterprise management tool, Trusted Agent FISMA, to collect and track data related to all 

Plans of Action and Milestones, including self-assessments, and certification and accreditation data. 

11
   See Appendix F, Status of Privacy Compliance Activities for ICE Systems, for further information. 


          Technical Security Evaluation of ICE Activities at the Chet Holifield Federal Building
                                              (Redacted)

                                                 Page 12
                validated the one Privacy Impact Assessment known to be
                required.

Recommendations:
                We recommend that the ICE CIO take the following actions for
                ICE activities at CHFB:

                Recommendation # 8: Implement procedures to identify and
                disconnect unused telecommunications line.

                Recommendation # 9: Complete the activities required to
                accredit and authorize IT systems that are in use at CHFB.

                Recommendation # 10: Complete Privacy Impact Assessments
                and publish updated System of Records Notices, as needed, for
                systems in use at CHFB.

Management Comments and OIG Analysis
                In the comments, ICE concurred with these recommendations. We
                agree that the recommendations are resolved and that planned
                actions are appropriate to address the issues. Recommendations 8,
                9, and 10 will be considered resolved but open pending completion
                and verification of all planned actions.




Technical Security Evaluation of ICE Activities at the Chet Holifield Federal Building
                                    (Redacted)

                                       Page 13
Appendix A
Purpose, Scope, and Methodology


                             This review is part of a program to evaluate, on an ongoing basis,
                             the implementation of DHS technical and information security
                             policies and procedures at DHS sites. The objective of this
                             program is to determine the extent to which critical DHS sites
                             comply with the department’s technical and information security
                             policies and procedures, according to DHS Sensitive Systems
                             Policy Directive 4300A and its companion document, the DHS
                             4300A Sensitive Systems Handbook.

                             We coordinated the implementation of this technical security
                             evaluation program with the DHS Chief Information Security
                             Officer (CISO). We mutually agreed to the wording for the Rules
                             of Engagement for the technical testing. 12 Our entrance and exit
                             conferences were held with ICE officials at the Office of
                             Information Technology (OIT) in Washington D.C. and by
                             telephone with CHFB OIT officials.

                             We performed technical evaluations only after the DHS CISO and
                             ICE agreed to our negotiated Rules of Engagement. These
                             technical evaluations included:

                                 •	 Security scans of servers, routers, and switches using
                                    various software packages, and
                                 •	 Scans to determine whether wireless devices were being
                                    used by DHS components.

                             We reviewed applicable DHS and ICE policies, procedures, and
                             ICE’s responses to our site surveys and technical questionnaires
                             Prior to performing our onsite review, we used ICE’s responses to
                             identify occupied space, server rooms, and telecommunications
                             closets. Our onsite review included a physical review of ICE
                             space, and interviews with ICE staff. Our technical review
                             included onsite reviews of server security policies as well as scans
                             for DHS wireless devices operating at CHFB. 13 Additionally, we
                             reviewed guidance provided by DHS to the components in the
                             areas of patch management, operation systems, and wireless
                             security.

                             We provided ICE with briefings concerning the results of
                             fieldwork and the information summarized in this report. We
                             conducted this review between February and July 2007.

12
     The Rules of Engagement established the boundaries and schedules for the technical evaluations
13
     We did not find any wireless devices being used by ICE at CHFB.

             Technical Security Evaluation of ICE Activities at the Chet Holifield Federal Building
                                                 (Redacted)

                                                    Page 14
Appendix A
Purpose, Scope, and Methodology



                       We performed our work according to the Quality Standards for
                       Inspection of the President’s Council on Integrity and Efficiency,
                       and pursuant to the Inspector General Act of 1978, as amended.

                       We appreciate the efforts by DHS management and staff to provide
                       the information and access necessary to accomplish this review.
                       Our points of contact for this report are Frank Deffer, Assistant
                       Inspector General for Information Technology, (202) 254-4100,
                       and Roger Dressler, Director for Information Systems and
                       Architectures, (202) 254-5441. Major OIG contributors to the
                       review are identified in Appendix G.




       Technical Security Evaluation of ICE Activities at the Chet Holifield Federal Building
                                           (Redacted)

                                              Page 15
Appendix B
Management Comments to the Draft Report




       Technical Security Evaluation of ICE Activities at the Chet Holifield Federal Building
                                           (Redacted)

                                              Page 16
Appendix B
Management Comments to the Draft Report




       Technical Security Evaluation of ICE Activities at the Chet Holifield Federal Building
                                           (Redacted)

                                              Page 17

Appendix B
Management Comments to the Draft Report




       Technical Security Evaluation of ICE Activities at the Chet Holifield Federal Building
                                           (Redacted)

                                              Page 18
Appendix B
Management Comments to the Draft Report




       Technical Security Evaluation of ICE Activities at the Chet Holifield Federal Building
                                           (Redacted)

                                              Page 19
Appendix C
ICE Novell Servers with Known Vulnerabilities




                           .




       Technical Security Evaluation of ICE Activities at the Chet Holifield Federal Building
                                           (Redacted)

                                              Page 20
Appendix D
ICE Windows Servers with Known Vulnerabilities




       Technical Security Evaluation of ICE Activities at the Chet Holifield Federal Building
                                           (Redacted)

                                              Page 21
Appendix D
ICE Windows Servers with Known Vulnerabilities




       Technical Security Evaluation of ICE Activities at the Chet Holifield Federal Building
                                           (Redacted)

                                              Page 22
Appendix E
Certification and Accreditation Status




                                                         Risk Assessment         Accreditation Status
                                                              Status
                                                             Expired                       ATO


                                                           Completed                       ATO


                                                           Completed                     Expired




        Technical Security Evaluation of ICE Activities at the Chet Holifield Federal Building
                                            (Redacted)

                                               Page 23
Appendix F
Status of Privacy Compliance Activities for ICE Systems




                                        Privacy           Privacy         Has the Privacy    Has a
                                       Threshold          Impact               Impact      System of
                                        Analysis         Assessment         Assessment      Records
                                         (PTA)             (PIA)            (PIA) Been       Notice
                                                         Required?         Submitted to      Been
                                                                              the DHS     Published?
                                                                           Privacy Office
                                                                          for Validation?
                                      PTA                No PIA           NA              NA
                                      Completed          required




                                      PTA                PIA              No                     Justice/INS
                                      completed          required                                -012 DACS
                                                                                                 60-FR-
                                                                                                 52690,
                                                                                                 52698, as
                                                                                                 modified by
                                                                                                 subsequent
                                                                                                 system of
                                                                                                 records
                                                                                                 notices.
                                      PTA not            Unknown           NA                    DHS/OS1
                                      submitted                                                  HSPD-12
                                      to the DHS                                                 Office of
                                      Privacy                                                    Security
                                      Office for                                                 Files 71 FR
                                      validation.                                                53700




        Technical Security Evaluation of ICE Activities at the Chet Holifield Federal Building
                                            (Redacted)

                                               Page 24
Appendix G
Major Contributors to This Report




                       Roger Dressler, Director, Department of Homeland Security,
                       Information Technology Audits

                       Kevin Burke, Audit Manager, Department of Homeland Security,
                       Information Technology Audits

                       Beverly Dale, Senior Auditor, Department of Homeland Security,
                       Information Technology Audits

                       Domingo Alvarez, Senior Auditor, Department of Homeland
                       Security, Information Technology Audits

                       Matthew Worner, Senior Program Analyst, Department of
                       Homeland Security, Information Technology Audits

                       Basil Marcus Badley, Senior Security Engineer, Department of
                       Homeland Security, Information Technology Audits

                       Syrita Morgan, Management and Program Assistant, Department
                       of Homeland Security, Information Technology Audits

                       Samer El-Hage, Management and Program Assistant, Department
                       of Homeland Security, Information Technology Audits

                       Steven Staats, Referencer Program Analyst, Department of
                       Homeland Security, Information Technology Audits




       Technical Security Evaluation of ICE Activities at the Chet Holifield Federal Building
                                           (Redacted)

                                              Page 25
Appendix H
Report Distribution




      Department of Homeland Security

      Secretary
      Deputy Secretary
      Chief of Staff
      Deputy Chief of Staff
      General Counsel
      Executive Secretary
      Under Secretary, Management
      Assistant Secretary for Policy
      Assistant Secretary for Public Affairs
      Assistant Secretary for Legislative Affairs
      Chief Information Officer (CIO)
      Chief Privacy Officer
      Deputy CIO
      Chief Information Security Officer
      Information Systems Security Manager, ICE
      CISO, ICE
      DHS Audit Liaison
      ICE Audit Liaison

      Office of Management and Budget

      Chief, Homeland Security Branch
      DHS Program Examiner

      Congress

      Congressional Oversight and Appropriations Committees, as appropriate




        Technical Security Evaluation of ICE Activities at the Chet Holifield Federal Building
                                            (Redacted)

                                               Page 26
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
